No. 20-602
CERTIFICATE OF WORD COUNT

STEPHANIE G. CLIFFORD,
Petitioner,
v.
DONALD J. TRUMP,
Respondent

STATE OF CALIFORNIA )
COUNTY OF LOS ANGELES) SS.:

Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am
an attorney at Harder LLP, the preparer of the document, with mailing address at
132 South Rodeo Drive, Fourth Floor, Beverly Hills, CA 90212.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the
OPPOSITION TO STEPHANIE G. CLIFFORD PETITION FOR WRIT OF
CERTIORARI contains 1918 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct.
CHARLES J .HARDER
Counsel of Record

{00114125;1}

